Arizona Document Services AZCLDP #81338
azdocuments@icloud.com | 480. 559.3458

No. 20-758

In The Supreme Court of the
United States
Audie Jay Reynolds
Petitioner
v.
US Bank National Association
Respondents

On Petition for a Writ of Certiorari To The
Supreme Court of Arizona
PETITION FOR REHEARING

Audie Reynolds. Pro Se
Audie Reynolds, Pro Se
Desertpilot2000@gmail.com
P.O. Box 13442
Scottsdale, AZ
85267

RECEIVED
MAR 1 6 2021
.SUPREME ColfRT1^

TABLE OF CONTENTS

Introduction

2

Petition For Rehearing

4

Reasons For Rehearing

7

Conclusion

10

Table of Authorities

11

Certification

12

Proof of Service

13

2

INTRODUCTION
Audie Jay Reynolds Petitions for a Rehearing to review the February 22,
2021 decision to deny his Petition for a Writ Certiorari which asked this
Court to resolve the issue of whether Arizona’s Deed of Trust Scheme (the
scheme) enacted in 1971, used as an alternative to the often-cumbersome
mortgage and judicial foreclosure system. See In re Krohn, 203 Ariz. 205,
208. P.3d 774, 777 (2002), as interpreted, provides good cause for removal
of one or more of its provisions under Severability. The grounds here, are
additional reasons for granting the Petition and substantial when
considering the issue.

Arizona’s notion as a matter of course, that

corporate appointed trustee assistant signatory’s are “duly appointed” is
simply biased and another provision in the Arizona Deed of Trust Scheme
adding to the convergence of these statutory provisions which work
together to produce a constitutional violation.

3

PETITION FOR REHEARING
The Appellant court’s judgment affirming Petitioner guilty of forcible
detainer and awarding U.S. Bank National Association, as Trustee for
Residential Asset Mortgage Products, Inc., Mortgage Asset-Backed PassThrough Certificates, Series 2006-NC2 (“US Bank(s)”) immediate and
exclusive possession of his home in Overgaard, and must be reviewed by
this court. The Court held Reynolds offered no basis to overcome the
presumption inherent to all recorded trustee’s deeds in that the trustee’s
sale comported with statutory requirements, see A.R.S. § 33-811(B), and
therefore waiver of all claims to title see A.R.S. § 33-811(C). see A.R.S. §
33-811(B), A.R.S. § 33-811(C); BT Capital, LLC v. TD Serv. Co. ofAriz.,
229 Ariz. 299, 301,1 11 (2012). Specifically...
“Reynolds urges that defects in the trustee’s sale render the
trustee’s deed invalid and thus undermine US Bank’s asserted
right to possession. But the merits of US Bank’s title are beyond the

4

scope of an FED action. See A.R.S. § 12-1177(A) (“[In an FED
action], the only issue shall be the right of actual possession and the
merits of title shall not be inquired into.”); see also Curtis v. Morris,
186 Ariz. 534, 534 (1996). The only issue was the right of possession,
and as described above, US Bank had the right of possession under
the trustee’s deed, f 7 Any challenge to the trustee’s sale—such as
Reynolds’s claim that the successor trustee was not authorized to
act as a trustee under Arizona law—must be pursued before the
sale has been completed; the trustor may not challenge the
completed sale based on pre-sale objections. See A.R.S. § 33-811(C);
BT Capital, LLC v. TD Serv. Co. of Ariz., 229 Ariz. 299, 301, til
(2012). “

However, the issue here which Petitioner has not previously raised is the
portion of the Courts holding which is particularly brazen regarding the
only signatory on U.S. Banks trustees deed, an individual located in
Georgia namely, “C. Scott, Trustee Sale Assistant.” The Appellate Court
determined this individual to be an acceptable signatory since he is

5

simply the trustee sale assistant for Western Progressive Inc, although
all of its stock owned by Premium Title Agency, Inc. which is an escrow
agent in Arizona. As stated by the Court...
“Reynolds’s challenge to the successor trustee is factually flawed.
He notes that the trustee’s deed is signed by “C. Scott ‘Trustee Sale
Assistant’” and argues that “Assistant Trustees” are not qualified
to conduct trustee’s sale under Arizona law. But the trustee was
“Western Progressive - Arizona, Inc.,” not “C. Scott.” See also
Reynolds, 719 Fed. Appx. 673. “C. Scott” did not substitute as
trustee, but rather was a “duly-authorized” agent signing on behalf
of the corporate successor trustee. See Samaritan Found, v.
Goodfarb, 176 Ariz. 497, 502 (1993) (noting that a corporation “can
only act through its agents”); Best Choice Fund, LLC v. Low &
Childers, P.C., 228 Ariz. 502, 510, f 26 (App. 2011) (as amended)”

6

REASONS FOR GRANTING THIS PETITION
This Court has specifically held that a constitutional injury arises as a
result of two or more statutory provisions operating together. See, Seila
Law LLC v. Consumer Financial Protection Bureau, March, 2020 citing,
Free Enterprise Fund, supra, at 509 (stating that the convergence of “a
number of statutory provisions” produce a constitutional violation). The
provision requiring “good-cause removal is only one of [the] statutory
provisions that, working together, produce a constitutional violation.”

Arizona Revised Statute (ARS) § 33-803 (C) is clear... “a trustee of a trust
deed who qualifies under subsection A shall not lend or delegate the
trustees name or corporate capacity to any individual or entity that does
not qualify as trustee of a trust deed. An individual, company, association
or corporation shall not circumvent the requirements of subsection A by
acting in concert with a nonqualifying trustee”

7

U.S. Banks trustees deed states its trustee is “Western Progressive
Trustee — Arizona Inc.” and that the “trustee’s capacity as a corporation
all the stock of which is owned by Premium Title Agency, Inc. an escrow
agent in the state of Arizona” This corporate trustee is that of a Georgia
based business with the same address as Altisource and Premium Title,
incorporated in Delaware with the only Arizona address is that of its
statutory agent. Circumvention accurately describes the behavior of
Altisource and its agents here. In addition, A.R.S. § 33-807(A) provides,
in relevant part, that “[B]y virtue of his position, a power of sale is
conferred upon the trustee of a trust deed....” (Emphasis added.) This
language, on its face, suggests that only the “true,” legally authorized
trustee may, by virtue of his “position,” exercise the power of sale. New
Sun Bus. Park, LLC v. Yuma Cnty., 221 Ariz. 43, 46, t 12, 209 P.3d 179,
182 (App.2009) (citing Nordstrom, Inc. v. Maricopa Cnty., 207 Ariz. 553,

8

556, f 10, 88 P.3d 1165, 1168 (App.2004)) (“When determining the
meaning of a statute, we first look to the plain language of the statute as
the most reliable indicator of its meaning.”)- Steinberger v. McVey, 234
Ariz. 125, 318 P.3d 419, 679.
The appellant court offered Samaritan Found, v. Goodfarb “...when the
client is a corporation, things become complex. The corporation is a
fictional entity which has independent status under the law. But it can
only act through its agents. Thus, the client, the corporate entity, and its
agents, who are the only ones who can communicate, are separated.”

This separation is not appropriate in light of the scheme which strictly
enforces a waiver of challenges in all forcible detainer hearings as well
as affording these corporations a summary and speedy remedy for
obtaining possession.

9

CONCLUSION

For the reasons set forth in this Petition, Audie Reynolds respectfully
requests this Honorable Court grant rehearing and his Petition for a
Writ of Certiorari.

Respectfully submitted the 10th day of March, 2021

Audie Reynolds. Pro Se
Audie Reynolds, Pro Se
Desertpilot2000@gmail.com
P.O. Box 13442
Scottsdale, AZ
85267

10

AUTHORITIES
Arizona Statutes:
Page(s)
A.R.S. § 33-803 (C)
7

A.R.S. § 33-807(A)
A.R.S. § 33-811(B),(C)
A.R.S. § 12-1177(A)
Opinions:

8
4,5
5

InReKrohn, 203 Ariz. 205, 208. P.3d 774, 777(2002)
3

BT Capital, LLC v. TD Serv. Co. of Ariz., 229 Ariz. 299, 301 (2012)
4,5
Curtis v. Morris, 186 Ariz. 534, 534 (1996)
5
Samaritan Found, v. Goodfarb, 176 Ariz. 497, 502 (1993)
6,9
Best Choice Fund, LLC v. Low & Childers, P.C., 228 Ariz. (App. 2011)
6

Seila Law LLC v. Consumer Financial Protection Bureau, March, 2020
7
Free Enterprise Fund, supra, at 509
7

New Sun Bus. Park, LLC v. Yuma Cnty., 221 Ariz.P.3d 179 (App. 2009)
8
Steinberger v. McVey, 234 Ariz. 125, 318 P.3d 419, 679

10

11

CERTIFICATION OF UNREPRESENTED PARTY
I hereby certify that this petition for rehearing is presented in good
faith and not for delay, and that it is restricted to the grounds specified
in Supreme Court Rule 44.2.
Respectfully submitted, the 10th day of March, 2021

/s/ Audie Reynolds. Pro Se
Audie Reynolds, Pro Se
D esertpilot2000@gmail. com
P.O. Box 13442
Scottsdale, AZ
85267

12

